                                  September 20, 1999

                                  WILLIAM J. DOWLING
                                  VICE PRESIDENT, ENGINEERING

                                  SUBJECT: Review of the USPS Equipment Preventive
                                           Maintenance Program (AC-MA-99-001)

                                  This management advisory report presents the results of
                                  our review of the United States Postal Service (USPS)
                                  Equipment Preventive Maintenance Program, (Project
                                  Number 99PA019DS000). The purpose of this report is to
                                  provide you with interim results of our work at USPS
                                  Headquarters and the field sites, as well as inform you of
                                  how we plan to proceed with the review. After we complete
                                  our initial review of the corporate data, we would like to
                                  meet with USPS Headquarters engineering personnel to
                                  discuss our preliminary results and planned approach to
                                  complete the audit.

    Results in Brief              Based upon the results to date, we concluded that our
                                  planned approach should be revised because we will likely
                                  find that the data is either unavailable or inconsistent at
                                  other processing and distribution centers.

                                  We initially planned to obtain fiscal year (FY) 1998 and 1999
                                  system-generated reports (nine from each year) from the
                                  Maintenance Activity Reporting and Scheduling and the
                                  Visual Maintenance Activity Reporting and Scheduling
                                  systems1 to test data integrity. However, maintenance
                                  personnel at the two sites we visited could not provide many
                                  of the system-generated reports we requested.

                                  At the first site, maintenance personnel produced two of the
                                  FY 982 and seven of the FY 99 reports. Maintenance

1
  These systems provide maintenance data relative to equipment, supplies, repair parts, inventories, cost of parts,
productivity, labor, contracts information, and maintenance scheduling.
2
  For both sites, the two reports were hardcopies maintained by maintenance personnel and were not generated from
the FY 98 backup file.
Equipment Preventive Maintenance                                                                        AC-MA-99-001



                                      personnel could not generate the remaining FY 98 reports
                                      because the backup tape was not available. Further,
                                      personnel indicated they were not aware of how to generate
                                      the remaining two FY 99 reports. At the second site,
                                      officials produced two of the FY 98 reports and all nine of
                                      the FY 99 reports. However, personnel could not generate
                                      the remaining FY 98 reports3 during our site visit because of
                                      limited technical resources (computer equipment and
                                      personnel) at the processing and distribution center.

                                      Consequently, we have revised our audit approach to obtain
                                      and evaluate maintenance data at the corporate level and
                                      evaluate data integrity at all processing and distribution
                                      centers.

                                      Additionally, based on our observations to date we offered
                                      suggestions to: (1) remind maintenance personnel to
                                      maintain FY 98 backup tapes; and (2) provide maintenance
                                      personnel with additional guidance on retrieving FY 98 and
                                      FY 99 maintenance reports.

    Background                        The Vice President, Engineering has overall management
                                      authority for the USPS Maintenance Program. The
                                      responsibilities include maintenance of all automation,
                                      mechanization, postal operating equipment and much of the
                                      customer services and retail sales equipment. In addition,
                                      engineering personnel also develop, define, and
                                      disseminate maintenance policies, guidelines and strategies
                                      for postal equipment. The processing and distribution
                                      centers use the Visual Maintenance Activity Reporting
                                      System to record maintenance data; however, prior to this
                                      system the Maintenance Activity Reporting System was
                                      used. The current system allows maintenance personnel to
                                      request maintenance data or reports relative to equipment,
                                      supplies, repair parts, inventories, cost of parts, productivity,
                                      labor, contract information, and maintenance scheduling.
                                      The USPS Handbook MS-63, Maintenance Operations
                                      Support, is the primary guidance used by employees who
                                      support maintenance operations.

    Objective, Scope, and             The objective of our review was to evaluate the integrity of
    Methodology                       maintenance data and preventive maintenance schedules.
                                      To accomplish these objectives, we planned to evaluate

3
    Personnel subsequently obtained the resources and support to retrieve and provide FY 98 reports after our visit.



                                                           2
                                                Restricted Information
Equipment Preventive Maintenance                                                                      AC-MA-99-001



                                   maintenance data at 19 processing and distribution centers.
                                   However, after visiting two sites,4 we determined that our
                                   planned approach should be revised due to unavailable or
                                   inconsistent maintenance data. In conducting our review,
                                   we interviewed processing and distribution center
                                   maintenance personnel and headquarters engineering
                                   personnel. We reviewed USPS policy and procedures, as
                                   well as other pertinent documents relating to equipment
                                   maintenance. This review was conducted between May
                                   and September 1999 in accordance with the President’s
                                   Council on Integrity and Efficiency, Quality Standards for
                                   Inspections.

    Maintenance Reports            Maintenance personnel at the two sites we visited could not
                                   provide many of the system-generated reports we
                                   requested. At the first site, maintenance personnel
                                   produced two of the FY 985 and seven of the FY 99 reports.
                                   Maintenance personnel said that they could not generate
                                   the remaining FY 98 reports because the backup tape was
                                   not available. Also, personnel indicated they were not
                                   aware of how to generate the remaining two FY 99 reports.
                                   At the second site, officials produced two of the FY 98
                                   reports and all nine FY 99 reports. However, personnel
                                   could not generate the remaining FY 98 reports6 during our
                                   site visit because of limited technical resources (computer
                                   equipment and personnel) at the processing and distribution
                                   center.

                                   In addition, our review of maintenance data provided by
                                   Headquarters and the two processing and distribution
                                   centers revealed discrepancies between system-generated
                                   reports and local source documents. For example, at the
                                   first site, we noted differences in FY 98 data between
                                   Headquarters and locally generated reports. At the same
                                   site, one report showed that all preventive maintenance was
                                   bypassed for the first three accounting periods of FY 99. At
                                   the second site, transaction dates and frequency of
                                   maintenance accomplished differed in summary reports,
                                   detailed reports, and source documents. We have not
                                   identified the underlying causes of these problems;
                                   however, differences may have occurred because

4
  The two sites visited were the Norfolk, VA, and Detroit, MI, processing and distribution centers.
5
  For both sites, the two reports were hard copies maintained by maintenance personnel and were not generated
from the FY 98 backup file.
6
  Personnel subsequently obtained the resources and support to retrieve and provide FY 98 reports after our visit.



                                                         3
                                              Restricted Information
Equipment Preventive Maintenance                                                  AC-MA-99-001



                              personnel did not follow prescribed conversion procedures
                              or data verification procedures.

 Suggestions                  We offer the following suggestions.

                              The Vice President, Engineering should:

                              1. remind maintenance personnel to maintain FY 98
                                 backup tapes; and

                              2. provide maintenance personnel with additional guidance
                                 on retrieving FY 98 and FY 99 maintenance reports.

 Management                   The Vice President, Engineering concurred with our
 Response                     observations and suggestions. Action has been taken to
                              remind offices to maintain the prior fiscal year backup tapes.
                              In addition, detailed instructions have been developed to
                              assist offices with retrieving FY 98 and FY 99 maintenance
                              reports. Management was concerned that the audit would
                              become a system review rather than a preventive
                              maintenance review. We have summarized management’s
                              comments in the report and included the full text of the Vice
                              President, Engineering response in the appendix.

 Evaluation of                Management’s comments are responsive to our
 Management                   suggestions. The actions taken by management to reiterate
 Response                     the processing and distribution centers’ responsibilities for
                              maintaining prior fiscal year backup tapes and providing
                              more detailed instructions for retrieving reports will assist us
                              in completing our planned objectives in a timely manner. In
                              addition, it will allow us to provide the information requested.

                              In response to concerns expressed by the Vice President,
                              Engineering, we plan to evaluate the reliability of computer
                              based information’s system. If the data is not reliable, we
                              will coordinate an alternate approach with management that
                              meets their needs.




                                                 4
                                      Restricted Information
Equipment Preventive Maintenance                                             AC-MA-99-001




                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,
                              please contact                 or me at (703) 248-2300.



                              Richard F. Chambers
                              Assistant Inspector General
                                for Performance

                              cc: Norman E. Lorentz
                                  Alan B. Kiel
                                  John R. Gunnels




                                                5
                                     Restricted Information
Equipment Preventive Maintenance                            AC-MA-99-001




                                              6                Appendix
                                   Restricted Information
Equipment Preventive Maintenance                            AC-MA-99-001




 Major Contributors to
 This Report




                                              7
                                   Restricted Information
